          OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



      ADMINISTRATIVE COSTS
         CLAIMED BY THE
        MAINE DISABILITY
     DETERMINATION SERVICES

   November 2005   A-01-05-15026




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY
MEMORANDUM
Date:   November 14, 2005                                                    Refer To:

To:     Manuel J. Vaz
        Regional Commissioner
         Boston

From:   Inspector General

Subject: Administrative Costs Claimed by the Maine Disability Determination Services
        (A-01-05-15026)

        For our audit of Fiscal Years (FY) 2001, 2002, and 2003 administrative costs claimed by
        the Maine Disability Determination Services (ME-DDS), our objectives were to:
                 evaluate the ME-DDS’ internal controls over the accounting and reporting of
                  administrative costs,
                 determine whether costs claimed by the ME-DDS were allowable and funds were
                  properly drawn, and
                 assess limited areas of the general security controls environment.

        BACKGROUND
        Disability determinations under the Social Security Administration’s (SSA) Disability
        Insurance and Supplemental Security Income programs are performed by disability
        determination services (DDS) in each State or other responsible jurisdiction, according
        to Federal regulations.1 Each DDS is responsible for determining claimants’ disabilities
        and assuring that adequate evidence is available to support its determinations. To
        make proper disability determinations, each State agency is authorized to purchase
        consultative medical examinations and medical evidence of record from the claimants’
        physicians or other treating sources. SSA pays the State agency for 100 percent of
        allowable expenditures using a State Agency Report of Obligations for SSA Disability
        Programs (Form SSA-4513). (For additional background information, see Appendix B
        of this report.)




        1
            20 C.F.R. §§ 404.1601, et. seq., and § 416.1001, et seq.
Page 2 – Manuel J. Vaz


RESULTS OF REVIEW
We determined that costs claimed on Forms SSA-4513 for the period October 1, 2000
through September 30, 2003 were allowable and properly allocated and the system of
internal controls was effective. Also, the aggregate of the SSA funds drawn down
agreed with total expenditures as reported by ME-DDS for disability determinations in
FYs 2001 through 2003. Finally, our limited review of the ME-DDS’ security controls
environment showed that controls were in place. (See Appendix C for costs reported on
Forms SSA-4513.)

INDIRECT COSTS

A final indirect cost rate was approved for FY 2001 and for the first 9 months of
FY 2002. However, a final rate has not been approved for the last 3 months of FY 2002
and all of FY 2003; therefore, a provisional indirect cost rate was used. We determined
that the indirect cost bases used by ME-DDS in FYs 2001, 2002 and 2003 were
reasonable and that the DDS applied the final and provisional indirect cost rates
appropriately.

CONCLUSION
We determined that the ME-DDS had effective internal controls over the accounting and
reporting of administrative costs. Also, we concluded that the general security controls
the ME-DDS had in place were satisfactory.

AGENCY COMMENTS
SSA and the Maine Department of Health and Human Services informed us that they
had no comments on our report.




                                                  S
                                                  Patrick P. O’Carroll, Jr.
                                    Appendices
APPENDIX A – Acronyms

APPENDIX B – Background, Scope, and Methodology

APPENDIX C – Schedule of Total Costs Reported on Forms SSA-4513—State
             Agency Reports of Obligations for SSA Disability Programs

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
Act           Social Security Act
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DI            Disability Insurance
EDP           Electronic Data Processing
FY            Fiscal Year
ME-DDS        Maine Disability Determination Services
OMB           Office of Management and Budget
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSA-4513      State Agency Report of Obligations for SSA Disability Programs
SSI           Supplemental Security Income
Treasury      Department of Treasury
                                                                        Appendix B

Background, Scope, and Methodology
BACKGROUND

The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), provides benefits to wage earners and their families in the event the wage
earner becomes disabled. The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, provides benefits to financially needy individuals
who are aged, blind, or disabled.

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determinations under both the DI and SSI programs are performed by disability
determination services (DDS) in each State, Puerto Rico and the District of Columbia in
accordance with Federal regulation.1 In carrying out its obligation, each DDS is
responsible for determining claimants’ disabilities and ensuring that adequate evidence
is available to support its determinations. To assist in making proper disability
determinations, each DDS is authorized to purchase medical examinations, x-rays, and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments system to pay for
program expenditures. Funds drawn down must comply with Federal regulations2 and
intergovernmental agreements entered into by Treasury and States under the Cash
Management Improvement Act of 1990.3 An advance or reimbursement for costs under
the program must comply with the Office of Management and Budget’s (OMB) Circular
A-87, Cost Principles for State, Local, and Indian Tribal Governments. At the end of
each quarter of the Fiscal Year (FY), each DDS submits a State Agency Report of
Obligations for SSA Disability Programs (Form SSA-4513) to account for program
disbursements and unliquidated obligations.




1
    20 C.F.R. §§ 404.1601, et. seq., and § 416.1001, et seq.
2
    31 C.F.R. Part 205.
3
    Pub. L. No. 101-453; 31 U.S.C. § 6503.



                                                     B-1
SCOPE

To accomplish our objectives, we reviewed the administrative costs Maine Disability
Determination Services (ME-DDS) reported on its Forms SSA-4513 for FYs 2001,
2002 and 2003. For the periods reviewed, we obtained evidence to evaluate recorded
financial transactions and determine whether they were allowable under OMB Circular
A-87, and appropriate, as defined by SSA’s Program Operations Manual System.

We also:
      Reviewed applicable Federal regulations and pertinent parts of Program
       Operations Manual System DI 39500, DDS Fiscal and Administrative
       Management, and other instructions pertaining to administrative costs incurred
       by ME-DDS and draw down of SSA funds covered by the Cash Management
       Improvement Act.
      Interviewed staff at ME-DDS and the SSA Regional Office.
      Evaluated and tested internal controls regarding accounting and financial
       reporting and cash management activities.
      Verified the reconciliation of official State accounting records to the administrative
       costs reported by ME-DDS on Forms SSA-4513 for FYs 2001, 2002 and 2003.
      Examined the administrative expenditures (personnel, medical service, and all
       other non-personnel costs) incurred and claimed by ME-DDS for FYs 2001, 2002
       and 2003 on Forms SSA-4513.
      Examined the indirect costs claimed by ME-DDS for FYs 2001, 2002 and 2003
       and the corresponding Indirect Cost Rate Agreements.
      Compared the amount of SSA funds drawn to support program operations to the
       allowable expenditures reported on Forms SSA-4513.
      Reviewed the State of Maine Single Audit reports issued in 2001, 2002 and
       2003.
      Conducted limited general control testing—which encompassed reviewing the
       physical access security within the DDS.

The electronic data used in our audit was sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling it with the
costs claimed on the Forms SSA-4513. We also conducted detailed audit testing on
selected data elements in the electronic data files.

We performed our audit at the ME-DDS in Augusta, Maine and the Office of Audit in
Boston, Massachusetts from June through September 2005. We conducted our audit in
accordance with generally accepted government auditing standards.




                                            B-2
METHODOLOGY

Our sampling methodology encompassed the four general areas of costs as reported on
Forms SSA-4513: (1) personnel, (2) medical, (3) indirect, and (4) all other
non-personnel costs. We obtained computerized data from ME-DDS for FYs 2001,
2002, and 2003 for use in statistical sampling. Also, we reviewed general security
controls the DDS had in place.

Personnel Costs

We sampled 65 employee salary items from 1 randomly selected pay period in
FY 2003. We tested regular and overtime payroll and hours for each individual
selected. We verified that approved time records were maintained and supported the
hours worked. We tested payroll records to ensure the ME-DDS correctly paid
employees and adequately documented these payments.

We also sampled 50 randomly selected medical consultant costs from FY 2003. We
determined whether sampled costs were reimbursed properly and ensured the selected
medical consultants were licensed.

Medical Costs

We sampled a total of 150 medical evidence of records and consultative examination
records (50 items from each FY) using a proportional random sample. We determined
whether sampled costs were properly reimbursed.

Indirect Costs

We reviewed the indirect cost base and computations used to determine those costs for
reimbursement purposes. Our objective was to ensure SSA reimbursed ME-DDS in
compliance with the approved Indirect Cost Rate Agreement. We analyzed the
approved rate used, ensuring the indirect cost rate changed when the Indirect Cost
Rate Agreement was modified. We reviewed the documentation and traced the base
amounts to Forms SSA-4513 for the indirect cost computation components. We
determined whether the approved rate used was a provisional, predetermined, or final
rate.4




4
    SSA specifically asked us to review the indirect cost rate in a letter dated May 19, 2005.


                                                       B-3
All Other Non-Personnel Costs

We stratified all other non-personnel costs into 10 categories: (1) Occupancy,
(2) Contracted Costs, (3) Electronic Data Processing (EDP) Maintenance, (4) New EDP
Equipment/Upgrades, (5) Equipment Purchases and Rental, (6) Communications,
(7) Applicant Travel, (8) DDS Travel, (9) Supplies, and (10) Miscellaneous. We
selected a stratified random sample of 50 items from each FY based on the percentage
of costs in each category to total costs.5

General Security Controls

We conducted limited general security control testing. Specifically we reviewed the
following 7 areas relating to general security controls: (1) Perimeter Security,
(2) Intrusion Detection, (3) Key Management, (4) Internal Office Security, (5) Computer
Room, (6) Security Plan, and (7) Continuity of Operations. We determined if the
general security controls the DDS had in place were satisfactory.




5
 In FY 2003, ME-DDS had 2 large equipment purchases, which we excluded from our random sample
population. We tested these 2 purchases, as well as 50 random sample items, for a total of 52 items in
FY 2003.


                                                  B-4
                                                         Appendix C

Schedule of Total Costs Reported on
Forms SSA-4513—State Agency Reports of
Obligations for Social Security Administration
Disability Programs
               Maine Disability Determination Services

            FISCAL YEARS (FY) 2001, 2002 and 2003 COMBINED
                                         UNLIQUIDATED       TOTAL
 REPORTING ITEMS   DISBURSEMENTS         OBLIGATIONS     OBLIGATIONS
Personnel            $11,513,176                 $0      $11,513,176
Medical               $5,660,635                 $0       $5,660,635
Indirect              $1,444,218         ($592,650)        $851,568
All Other             $2,375,163                 $0       $2,375,163
TOTAL                $20,993,192         ($592,650)      $20,400,542

                               FY 2001
                                         UNLIQUIDATED        TOTAL
 REPORTING ITEMS   DISBURSEMENTS         OBLIGATIONS     OBLIGATIONS
Personnel             $3,581,444               $0         $3,581,444
Medical               $1,605,100               $0         $1,605,100
Indirect                 $24,981               $0            $24,981
All Other               $702,998               $0          $702,998
TOTAL                 $5,914,523               $0         $5,914,523
                               FY 2002
                                         UNLIQUIDATED        TOTAL
 REPORTING ITEMS   DISBURSEMENTS         OBLIGATIONS     OBLIGATIONS
Personnel             $3,908,167                $0        $3,908,167
Medical               $2,044,990                $0        $2,044,990
Indirect               $275,961           $134,140         $410,101
All Other               $770,724                $0         $770,724
TOTAL                 $6,999,842          $134,140        $7,133,982




                                   C-1
                                              FY 2003
                                                          UNLIQUIDATED                  TOTAL
     REPORTING ITEMS         DISBURSEMENTS                OBLIGATIONS               OBLIGATIONS
    Personnel                   $4,023,565                         $0               $4,023,565
    Medical                     $2,010,545                         $0               $2,010,545
    Indirect                    $1,143,276                  ($726,790)1              $416,486
    All Other                     $901,441                         $0                $901,441
    TOTAL                       $8,078,827                 ($726,790)               $7,352,037




1
  During FY 2003, the approved provisional indirect cost rate for ME-DDS was 25 percent. The current
approved provisional indirect cost rate for ME-DDS is 10.4 percent. The $1,143,276 in the disbursements
column was calculated using the 25 percent provisional indirect cost rate. The $416,486 in the total
obligations column is the amount the ME-DDS is currently entitled to based on the provisional indirect
cost rate of 10.4 percent. The unliquidated obligation ($726,790) is the difference between the
$1,143,276 calculated at the 25 percent indirect cost rate and the $416,486 calculated at the 10.4 percent
rate. When a final indirect cost rate for FY 2003 is approved, ME-DDS will recalculate the amount of
indirect cost they are entitled to and will close out this unliquidated obligation by returning to SSA the
difference between the $1,143,276 in indirect costs that they have received and the amount they should
receive based on the final approved indirect cost rate.


                                                   C-2
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG CONTACTS

   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

   David Mazzola, Audit Manager, (617) 565-1807


ACKNOWLEDGMENTS

In addition to those named above:

   Frank Salamone, Auditor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-05-15026.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
